               OFFICE OF THE SPECIAL INSPECTOR GENERAL

                    FOR AFGHANISTAN RECONSTRUCTION


       INSPECTION OF HABIB RAHMAN SECONDARY SCHOOL
          CONSTRUCTION PROJECT IN KAPISA PROVINCE:
         DESIGN AND SAFETY ISSUES REQUIRE ATTENTION




                             October 26, 2009




SIGAR Inspection 10-3
             SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION
                                                   400 Army Navy Drive
                                                  Arlington, Virginia 22202


     October 26, 2009

     MEMORANDUM FOR: Commander, United States Forces-Afghanistan

                                  Commander, Combined Joint Task Force-82

     SUBJECT: SIGAR Inspection Report 10-3: Inspection of Habib Rahman Secondary School
              Construction Project in Kapisa Province: Design and Safety Issues Require Attention


     This report provides observations, findings, and recommendations of an inspection of a
     school construction project funded by the Commander’s Emergency Response Program, and
     managed by the Kapisa Provincial Reconstruction Team (PRT). This inspection focused on
     the management, design, and construction work for the Habib Rahman Secondary School
     located in the Nijrab District of Kapisa Province. This construction project cost the U.S.
     government $312,000 dollars. It is one of 12 school projects initiated by the Kapisa PRT
     during the past 18 months.

     The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR)
     conducted the inspection between June and August 2009. A summary of our report is on
     page ii. When preparing the final report, we considered written comments submitted by
     United States Forces-Afghanistan and incorporated information provided from these
     comments, as appropriate, into the report. These comments are reprinted in Appendix C
     of this report.

     The inspection was conducted under the authority of Public Law 110-181 and the
     Inspector General Act of 1978, as amended; and performed in accordance with the
     Quality Standards for Inspections issued by the Council of the Inspectors General on
     Integrity and Efficiency.

     Very respectfully,




     Guy Sands-Pingot
     Assistant Inspector General for Inspections
     Office of the Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 10-3: Habib Rahman School Construction Project                                     Page i
                                                                      Summary of Report: SIGAR Inspection 10-3                    October 26, 2009


                      SIGAR
  Special Inspector General for Afghanistan Reconstruction
                                                                      Inspection of Habib Rahman Secondary School
                                                                      Construction Project in Kapisa Province: Design and
                                                                      Safety Issues Require Attention

Why SIGAR Did This Inspection –
SIGAR conducts inspections of Afghanistan infrastructure reconstruction projects to determine whether U.S. funds are used
appropriately, contract terms are met, adequate oversight is provided, and the project can be maintained upon turnover to Afghan
authorities.
What SIGAR Inspected –
In June and August 2009, SIGAR inspected the Habib Rahman Secondary School construction project being built in a remote part of
Nijrab District, Kapisa Province, Afghanistan. The design plan called for a two story, 24 classroom school building capable of serving up
to 2,000 students to be built at a cost of $312,000 funded with money from the Commander’s Emergency Response Program (CERP).
This education infrastructure project was proposed by the Kapisa Provincial Reconstruction Team (PRT) and initially approved for
implementation in August 2008.

What SIGAR Found –
Project Management and Quality Assurance: SIGAR found that the PRT’s management and quality assurance program for this project
was inadequate during the early phases of its implementation as evidenced by a number of contracting missteps, a lack of project
documentation, and insufficient quality control measures. However, as a result of improved project oversight procedures on the part
of the PRT, SIGAR’s onsite visits in June and August found construction to be largely on time, within budget, and generally meeting the
contract’s quality requirements.
Design Flaws Which Impact Safety: SIGAR found two areas of concern that require attention.
• Unfinished work left over from earlier construction at the site continues to cause major design and safety issues. The contract does
  not require the removal of this unfinished structure and currently there are no plans to have it demolished. SIGAR believes this
  abandoned construction site occupies valuable space which could be used for a number of other purposes. Additionally, it presents
  an unsafe environment for school children.

• The lack of a reinforced retaining wall and the associated earth removal work needed in the rear of the school which is adjacent to
  the base of a hill could pose a hazard to building occupants from potential rock and mud slides. This problem resulted from the
  decision to build the new school behind the unfinished work site which required the contractor to excavate a portion of the hill to
  make room for the new construction. The existing masonry security perimeter wall is insufficient to protect the school from debris
  falling from the hillside.

What SIGAR Recommends –
That the Commander, U.S. Forces-Afghanistan and Commander, Kapisa PRT initiate a follow-on CERP project to correct the design and
safety deficiencies noted in this report.
For more information, contact SIGAR Public affairs at (703) 602-8742 or PublicAffairs@sigar.mil




    View of new school construction obscured by the                                       View of the limited offset distance from the base of a hill
    unfinished and unusable structure of a previous                                       which could be subject to rock and mud slides. (Photo
    construction project. (Photo provided by SIGAR)                                       provided by SIGAR)


SIGAR Inspection 10-3 Habib Rahman School Project                                                                                                 Page ii
                                                    Special Inspector General for Afghanistan Reconstruction




            Table of Contents

            Inspection Objectives –                                                                            1

            Project Background -                                                                               1

                Contract Costs and Timing                                                                      2
                Contract Requirements and Standards                                                            2

            SIGAR Inspection Findings -                                                                        3

                Abandoned Construction Site Could be Used for Other Purposes                                   3

                Lack of Retaining Wall Poses Risk to School Occupants                                          4

                Quality Control and Assurance Have Improved                                                    5
            Conclusions -                                                                                      6

            Recommendations -                                                                                  6

            Agency Comments and Response -                                                                     6

            Appendix A – Scope and Methodology                                                                 7

            Appendix B – Abbreviations                                                                         8

            Appendix C – Agency Comments                                                                       9


            List of Figures and Photographs:
            Figure 1: Location of the Habib Rahman Secondary School                                            1

            Figure 2: Design Plan the Habib Rahman Secondary School                                            3
            Site Photo 1: View of partially completed school building                                          2
            Site Photo 2: View of earlier school construction                                                  4

            Site Photo 3: View of hill behind the school building                                              5
            Site Photos 4 and 5: Views of PRT’s Quality Assurance Representative inspecting                    5
            construction progress




SIGAR Inspection 10-3 Habib Rahman School Project                                                                  Page iii
                                                    Special Inspector General for Afghanistan Reconstruction




               Inspection Objectives
               SIGAR conducts inspections of Afghanistan infrastructure reconstruction projects to determine
               whether U.S. funds are used appropriately, contract terms are met, adequate oversight is provided,
               and the project can be maintained upon turnover to Afghan authorities.

               SIGAR inspected the Habib Rahman Secondary School construction project managed by the Kapisa
               Provincial Reconstruction Team (PRT), which is a component of United States Forces-Afghanistan
               (USFOR-A), between June and August 2009 and conducted onsite visits of the school construction
               work on June 21 and August 12, 2009.

               Details on our inspection scope and methodology are provided in Appendix A.


               Project Background
               In support of Afghanistan’s educational goals, the United States has sponsored the construction of
               hundreds of schools and educational facilities throughout Afghanistan since 2002. As part of this
               effort, the Habib Rahman Secondary School construction project was proposed by the Kapisa PRT in
               summer 2008 and approved for implementation in August 2008. Located in the remote and
               mountainous Nijrab District of Kapisa Province (see Figure 1), the intent of the project was to build
               a school compound that would serve an isolated community that has a growing population of
               children for whom no adequate school structure previously existed. (See Site Photo 1)




                  Figure 1: The Habib Rahman Secondary School is located in the mountainous Nijrab District of Kapisa
                  Province shown by the red star. (Map provided by the Afghanistan Information Management System)




SIGAR Inspection 10-3 Habib Rahman School Project                                                                       Page 1
                                                    Special Inspector General for Afghanistan Reconstruction



               The project is part of a larger school construction initiative approved for implementation in August
               2008 with funding provided by the Commander’s Emergency Response Program (CERP). 1 As part of
               this initiative, 12 school construction projects have been initiated over the past 18 months in Kapisa
               Province.




                                                                                                               Site Photo 1: View of
                                                                                                               partially completed
                                                                                                               school building. Portions
                                                                                                               of the previously
                                                                                                               constructed and
                                                                                                               abandoned structure can
                                                                                                               be seen to the right of the
                                                                                                               photograph. (Photo
                                                                                                               provided by SIGAR)

               Contract Costs and Timing

               After a series of earlier contract award problems, the current firm fixed price contract was awarded
               on December 22, 2008, at a total cost of $312,000, with a performance period of 270 days. 2

               Contract Requirements and Standards

               The contract calls for the construction of a two-story, 24 classroom school building capable of
               serving up to 2,000 students. Associated structures include a power generation house that requires
               the installation of a 10 kilowatt diesel fuel generator, a latrine, a hand operated water pump well
               and reservoir, and concrete walkways in addition to site preparation and the removal of rubble and
               refuse. Additionally, the contractor is responsible for fabricating and installing enough student
               bench desks for the students who would attend the school.

               At the time of SIGAR’s inspection in August, it was estimated that the project was almost 50
               percent complete (see Site Photo 1) with significant progress made on the main school building and
               perimeter wall.




               1
                 This initiative was directed by Regional Command East, the higher headquarters of the Kapisa PRT and one
               of five regional commands that comprise the NATO-led International Security Assistance Force within
               Afghanistan. Regional Command East also serves as the headquarters for the Combined Joint Task Force
               located at Bagram Air Field which reports to USFOR-A.
               2
                The project experienced a series of false starts beginning in August 2008 with a contract award to the
               Provincial Director of Education to serve as the prime contractor. This award to line ministries was later was
               determined to be prohibited for CERP-funded projects as result of new guidelines. As a result the original
               contract was terminated and the PRT re-awarded the contract to a local construction firm in December 2008.




SIGAR Inspection 10-3 Habib Rahman School Project                                                                                            Page 2
                                                    Special Inspector General for Afghanistan Reconstruction




               Figure 2: Design Plan for the Habib Rahman Secondary School which builds around a previously built,
               unfinished structure (shaded in yellow) rather than demolishing it. (Illustration provided by Kapisa PRT)

               SIGAR Inspection Findings
               SIGAR found that after a number of contracting missteps made during the initial phases of the
               project, construction efforts appear to be largely on schedule, within budget, and in general
               compliance with the quality standards called for in the new school construction contract. However,
               the project suffers from two major design flaws that create unsafe conditions.

               Abandoned Construction Site Is Unsafe and Could be Used for Other Purposes

               The first design flaw in the project noted by SIGAR focuses on the existence of a previously
               constructed but unfinished and unsafe structure (see Site Photo 2 and Figure 2) which occupies
               valuable land that could be used for a number of other purposes. 3 When the Kapisa PRT became
               involved in the school project in the summer of 2008 following discussions with the Provincial
               Director of Education, it was decided that the existing structure should not be used because of
               concerns regarding its structural soundness. The current contract did not require the removal of
               this prior construction and PRT officials noted that they do not have plans to remedy this problem.
               SIGAR could not determine why this unfinished and unsafe structure was not demolished as part of
               the initial project proposal except for statements from the current PRT staff which indicated that
               local authorities believed they could make use of the unfinished structure. Despite attempts to


               3
                Several years ago, prior to the initiation of this CERP project, an international non-governmental
               organization started construction of a school building on the same site. The partially built structure was
               never completed due to a number of contractual and structural problems encountered during construction.




SIGAR Inspection 10-3 Habib Rahman School Project                                                                           Page 3
                                                    Special Inspector General for Afghanistan Reconstruction



               locate documents that would provide definitive details on the construction of this partially built
               structure, SIGAR could find no records or individuals who could offer further information on this
               decision.




                                                                                                               Site Photo 2: View of
                                                                                                               earlier school
                                                                                                               construction that was
                                                                                                               left unfinished and
                                                                                                               abandoned for several
                                                                                                               years. This abandoned
                                                                                                               structure stands
                                                                                                               directly next to the
                                                                                                               main road leaving no
                                                                                                               clearance room for
                                                                                                               further construction in
                                                                                                               front. (Photo provided
                                                                                                               by Kapisa PRT)


               Lack of Retaining Wall Poses Risk to School Occupants

               In order to make room for the present construction site, which had to be built around the
               abandoned construction site, the contractor was required to excavate an extensive area 50 meters
               into the adjacent hillside. For this reason, the new school building was constructed adjacent to an
               embankment at the base of a steep hillside (see Site Photo 3) near a flood plain that was graded in
               order to accommodate the new school compound.

               SIGAR found that the rear of the school building abuts the base of the embankment slope of the hill
               leaving a space of less than 2 meters between the perimeter wall and the rear wall of the school.
               Proper construction of a retaining wall requires masonry reinforcement of the wall as well as a
               footing constructed to the correct dimensions. Such a retaining wall is needed to hold back
               potential rock and mudslides. SIGAR considers the absence of a retaining wall to be a significant
               deficiency because the embankment slope may be subject to rock and mud slides that could pose
               an imminent hazard to building occupants.

               SIGAR believes that the Kapisa PRT Quality Assurance Representative responsible for the planning
               of this project should have insisted on the construction of an appropriately designed retaining wall,
               as well as additional site grading to ensure an adequate offset between the school and the
               embankment was included in the original statement of work. These steps would have produced an
               adequate and safe school structure that would protect its occupants from landslides and other site
               hazards.



SIGAR Inspection 10-3 Habib Rahman School Project                                                                                        Page 4
                                                    Special Inspector General for Afghanistan Reconstruction




                                                                                                         Site Photo 3: View of the
                                                                                                         embankment at the rear of the
                                                                                                         school building. Although a
                                                                                                         perimeter wall was
                                                                                                         subsequently built, it does not
                                                                                                         afford the structural protection
                                                                                                         against mud and rockslides that
                                                                                                         a properly designed and
                                                                                                         constructed retaining wall
                                                                                                         would provide. (Photo provided
                                                                                                         by Kapisa PRT)



               Quality Control and Assurance Have Improved

               At the time of SIGAR’s June site visit, key project management documents such as a proper Quality
               Control Plan, work schedules, and routine progress reports from the contractor, were largely
               missing from the project file. SIGAR believes the Kapisa PRT’s management of the project, as well
               as the conduct of its Quality Assurance Program, were inadequate during the initial stages of this
               project as evidenced by the numerous contracting missteps discussed earlier. However, SIGAR
               found that both the contractor’s and the PRT’s quality review systems improved significantly
               between our June and August site visits as a result of increased interest in the project on the part
               of the PRT. Improvements implemented during this time period included regularly scheduled visits
               by the PRT’s Quality Assurance Representative (see Site Photos 4 and 5 below), the filing of daily
               progress reports by the contractor, and development of a “coaching” program to teach proper
               construction techniques to work crews by the PRT. These improvements have largely corrected the
               earlier performance problems observed by SIGAR for the new school construction.




                 Site Photos 4 and 5: View of Kapisa PRT’s Quality Assurance Representative inspecting construction
                 progress. (Photo provided by SIGAR)


SIGAR Inspection 10-3 Habib Rahman School Project                                                                                           Page 5
                                                    Special Inspector General for Afghanistan Reconstruction




               Conclusions
               While contract cost, schedule, and quality requirements have largely been met, SIGAR found that
               this project suffers from two major design flaws which have safety implications that should be
               resolved.


               Recommendations
               SIGAR recommends that the Commander, USFOR-A and the Commander, Kapisa PRT initiate a
               follow-on CERP project to correct the design and safety deficiencies noted in this report.

               Agency Comments and Response

               USFOR-A and the Kapisa PRT provided written responses to a draft of this report which are included
               in Appendix C.

               In its response, USFOR-A indicated that it concurred with the information contained in the SIGAR
               report but stated that its representatives had not visited the project site. USFOR-A also stated that
               the demolition of old buildings is an approved CERP project category and that the recommended
               project could be implemented if it met one of the Commander’s objectives. The response further
               added that the demolition “… seems like a job the community might be able to accomplish
               themselves.” USFOR-A advised SIGAR that it had no basis from which to provide a concurrence or
               non-concurrence on the need for a retaining wall.

               In its response, the Kapisa PRT agreed with the recommendation for a follow-on project to address
               deficiencies, particularly the need for a rear retaining wall. The PRT indicated that the partially
               completed structure had not been removed “at the request of Nijrab government officials and local
               shura 4 leaders.” The PRT further stated that local engineers were attempting to acquire funding to
               “build a small community center and/or library on the site that may use some of the existing
               structure.” SIGAR believes this previously built construction work to be structurally inadequate for
               reuse and requires immediate attention. An examination of sections of the partially constructed
               structure found poor construction methods and inferior materials used that call its structural
               soundness into question. For this reason SIGAR continues to believe the existing structure should
               be demolished with the caveat that the PRT advise Nijrab government officials and local leaders of
               the reasons for the removal and seek their concurrence for the need of a separate location for a
               proposed community center and/or library.

                (This report was conducted under the SIGAR Inspection Project Code SIGAR-002d-I)




               4
                 A shura is a term used throughout Afghanistan to describe a consultative body. At the local and tribal
               levels, leaders meet in a shura to deliberate key decisions affecting their communities.




SIGAR Inspection 10-3 Habib Rahman School Project                                                                         Page 6
                                                    Special Inspector General for Afghanistan Reconstruction




               Appendix A- Scope and Methodology
               SIGAR performed this project inspection from June to August 2009 in accordance with Quality
               Standards for Inspections issued by the Council of the Inspectors General on Integrity and
               Efficiency. The inspection team included the Assistant Inspector General for Inspections and an
               engineer inspector.

               In performing this project inspection, SIGAR:

                    •     Reviewed contract documentation to include the following:

                          -    Contract Kapisa-Nijrab-8033-22107 issued by the Kapisa-Parwan PRT on December 21,
                               2008; relevant purchase orders, invoices, and vouchers dealing with the project; the
                               Statement of Work with all required specifications and accompanying documentation.

                          -    All documentation prepared and presented by the contractor dealing with the
                               construction of the school project.

                          -    The project Survey and Assessment Plan including design drawings and specifications,
                               PRT quality assurance reports and records, construction progress photographs and
                               other documentation brought to the inspection team’s attention.

                    •     Interviewed the previous and current PRT Commanders and other knowledgeable
                          members of the PRT staff; the contractor and work foreman who were present during the
                          on-site visits to the school construction sites made in both June and August 2009; and the
                          Kapisa Provincial Director of Education.

                    •     Conducted onsite inspections of the school project during visits on June 20 and August 12,
                          2009. Personnel from the Kapisa PRT (that included the previous and current PRT Engineer
                          and members of their staff) accompanied SIGAR inspectors during these inspection visits.




SIGAR Inspection 10-3 Habib Rahman School Project                                                                      Page 7
                                                    Special Inspector General for Afghanistan Reconstruction




               Appendix B – Abbreviations
               CERP                           Commander’s Emergency Response Program
               PRT                            Provincial Reconstruction Team
               SIGAR                          Special Inspector General for Afghanistan Reconstruction
               USFOR-A                        United States Forces-Afghanistan




SIGAR Inspection 10-3 Habib Rahman School Project                                                              Page 8
                                                    Special Inspector General for Afghanistan Reconstruction




               Appendix C – Agency Comments




    [Note: When the draft of this report was sent for agency comment, it was tentatively designated as SIGAR Inspection 09-05.
    Since receiving agency comments, this report has been re-designated SIGAR Inspection 10-3 as it is being issued in FY 2010.]



SIGAR Inspection 10-3 Habib Rahman School Project                                                                                  Page 9
                                                    Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 10-3 Habib Rahman School Project                                                              Page 10
                                                    Special Inspector General for Afghanistan Reconstruction




               SIGAR Mission and Contact Information
               SIGAR Mission:                 The mission of the Special Inspector General for Afghanistan
                                              Reconstruction is to enhance oversight of programs for the reconstruction
                                              of Afghanistan by conducting independent and objective audits,
                                              inspections, and investigations on the use of taxpayer dollars and related
                                              funds. SIGAR works to provide accurate and balanced information,
                                              evaluations, analysis, and recommendations to help the U.S. Congress, U.S.
                                              agencies, and other decision-makers to make informed oversight, policy,
                                              and funding decisions to:

                                              •       Improve effectiveness of the overall reconstruction strategy and its
                                                      component programs;
                                              •       Improve management and accountability over funds administered by
                                                      U.S. and Afghan agencies and their contractors;
                                              •       Improve contracting and contract management processes;
                                              •       Prevent fraud, waste, and abuse; and
                                              •       Advance U.S. interests in reconstructing Afghanistan.

                 Obtaining Copies of SIGAR                            To obtain copies of SIGAR documents at no cost, go to
                 Reports and Testimonies:                             SIGAR’s web-site (www.sigar.mil). SIGAR posts all released
                                                                      reports, testimonies, and correspondence on its web-site.

                 To Report Fraud, Waste, and                          To help prevent fraud, waste, and abuse by reporting
                 Abuse in Afghanistan                                 allegations of fraud, waste, abuse, mismanagement, and
                 Reconstruction Programs:                             reprisal contact SIGAR’s Hotline:

                                                                          •   Web: www.sigar.mil/fraud
                                                                          •   Email: hotline@sigar.mil
                                                                          •   Phone DSN Afghanistan: 318-237-2575
                                                                          •   Phone International: +1-866-329-8893
                                                                          •   Phone DSN International: 312-664-0378
                                                                          •   U.S. Fax: +1-703-604-0983

                 Public Affairs:                                      Public Affairs Officer
                                                                        • Phone: 703-602-8742
                                                                        • Email: PublicAffairs@sigar.mil
                                                                        • Mail: SIGAR Public Affairs
                                                                                 400 Army Navy Drive
                                                                                 Arlington, VA 22202




SIGAR Inspection 10-3 Habib Rahman School Project                                                                                  Page 11
